   April 5, 2002




Logistics

Delivery and Receipt of DoD Cargo
Inbound to the Republic of Korea
(D-2002-079)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
LTL                   Less-Than Truckload
MCT                   Movement Control Team
PODs                  Ports of Debarkation
SSA                   Supply Support Activities
TCMD                  Transportation Control Movement Document
UMMIPS                Uniform Materiel Movement and Issue Priority System
USFK                  U.S. Forces Korea
                              Office of the Inspector General, DoD
Report No. D-2002-079                                                                        April 5, 2002
      (Project No. D2000LH-0131.002)

                       Delivery and Receipt of DoD Cargo Inbound
                                 to the Republic of Korea

                                         Executive Summary

Introduction. This is the third and final in a series of reports being issued by the
Inspector General, DoD, to address the effectiveness of the DoD supply and
distribution system. The Assistant Deputy Under Secretary of Defense (Supply Chain
Integration) expressed concern about whether the supply and distribution system was
effective in delivering cargo to end users at overseas locations. This report discusses
delivery and receipt by U.S. Forces Korea of DoD cargo that is inbound to the
Republic of Korea (the theater).

Objectives. Our objective was to assess the effectiveness of the DoD distribution and
transportation system to support the DoD strategic goal of reducing logistics response
time, as it relates to customers located outside the continental United States. The
specific objective for this portion of the review was to assess delivery and receipt of
DoD cargo arriving in the theater.

Results. The surface delivery of DoD cargo from ports of debarkation to consignees
using commercial carriers was not adequately managed within the theater, and Uniform
Materiel Movement and Issue Priority Systems standards were not always complied
with for delivery of high priority cargo from the ports of debarkation. To assess
surface delivery times, we conducted judgmental samples of cargo deliveries from ports
of debarkation to consignees. In our review, cargo delivered from Kimpo International
Airport, Korea, and Osan Air Base, Korea, usually exceeded the Uniform Materiel
Movement and Issue Priority Systems 1-day delivery standard. Delivery times for
shipments of cargo from those aerial ports of debarkation reviewed for November and
December 2000 and January and February 2001 averaged almost 3.8 days. Delivery
times for less-than truckload∗ shipments of cargo from Osan Air Base reviewed for
November and December 2000 were not consistently completed within the 3-day
commercial contract requirement. Further, at the port of Pusan, Korea, commercial
carriers did not always return DD Form 1384-2, “Transportation Control Movement
Documents,” with a consignee signature and date of receipt before returning
DD Form 1384-2 to the consignor. As a result, U.S. Forces Korea had no assurance
that high priority cargo (Transportation Priority 1) for DoD was delivered in a timely
manner and was in compliance with Uniform Materiel Movement and Issue Priority
System standards, or that commercial carriers were held accountable for performance
of delivery contracts. Also, shipping high priority cargo by air and having U.S. Forces

∗
    Less-than truckload is a term that the commercial trucking industry uses to identify a shipment that does
    not use the full weight or cubic carrying capacity of a truck.
Korea arrange for commercial carriers to deliver cargo in excess of Uniform Materiel
Movement and Issue Priority System standards was an inefficient use of DoD
resources. Further, mission capabilities may be hampered because of untimely delivery
of high priority cargo (finding A).

The Supply Support Activities in the theater that we reviewed did not adequately
maintain truck manifests used for processing receipts for delivered cargo or end-user
pickup sheets used to show when cargo was issued to the end user. Further, the
consignee did not always pick up cargo timely from the Supply Support Activities. As
a result, the Supply Support Activities had no assurance that the cargo delivered was
properly accounted for, the date the end user received the cargo, or whether the end
user received the cargo (finding B).

Summary of Recommendations. We recommend that the Commander, U.S. Forces
Korea establish guidance for delivery of cargo using the Uniform Materiel Movement
and Issue Priority System or U.S. Forces Korea supplemental standards; establish
procedures for retaining documentation containing delivery times and dates as evidence
that cargo was delivered; prepare or amend contracts to establish compliance with
delivery standards or U.S. Forces Korea supplemental standards; establish procedures
to ensure that the priority of cargo to be delivered is matched with a contract with
delivery standards; establish procedures, metrics, and surveillance plans to monitor
commercial carriers for timely delivery and to reconcile movement control documents
that will ensure consignees receive cargo promptly and accurately; require Supply
Support Activities to have personnel available to receive high priority cargo when
needed; require Supply Support Activities to maintain legible truck manifests and
end-user pickup sheets and to revise U.S. Forces Korea Regulation 55-355, “Korea
Traffic Management,” June 1992, to immediately contact customers for pickup of high
priority cargo.

Management Comments. The U.S. Forces Korea concurred and stated that it will
take action to improve the transportation procedures as outlined in this report. Further,
action will include clearly defined procedures, development and establishment of
effective controls, standards, evaluations, and internal reporting requirements that will
prevent future occurrences of the problems. Although not required to comment, the
Department of the Army, Office of the Deputy Chief of Staff for Logistics concurred
with the report and with U.S. Forces Korea comments to the report. See the Finding
section for additional discussion of management comments and the Management
Comments section of the report for the complete text of the comments.

Audit Response. The U.S. Forces Korea comments are fully responsive. We
commend U.S. Forces Korea for their prompt and comprehensive actions and their
cooperation to improve the delivery and receipt of DoD cargo inbound to the Republic
of Korea.




                                            ii
Table of Contents

Executive Summary                                                        i


Introduction
     Background                                                          1
     Objective                                                           2

Findings
     A. Delivery of DoD Cargo from Ports of Debarkation to Consignees    4
     B. Receipt Processing of DoD Cargo                                 13

Appendixes
     A. Audit Process                                                   17
         Scope and Methodology                                          17
         Management Control Program Review                              18
         Prior Coverage                                                 18
     B. Customer Wait Time                                              20
     C. Report Distribution                                             21

Management Comments
     Department of the Army                                             23
     U.S. Forces Korea                                                  24
Background
            The Assistant Deputy Under Secretary of Defense (Supply Chain Integration)
            expressed concern about whether the supply and distribution system was
            effective in delivering cargo to customers at overseas locations. We issued our
            first report, Inspector General, DoD, Report No. D-2001-149, “Coordinating
            and Tracking of Commercial Containers in Korea,” on June 22, 2001. The
            objective in that audit was to assess movement of commercial containers in the
            Republic of Korea (the theater). We issued our second report, Inspector
            General, DoD, Report No. D-2002-004, “Import Processing of DoD Cargo
            Arriving In the Republic of Korea,” on October 4, 2001. The objective in that
            audit was to assess import processing of commercial ports of entry in the
            theater. This third and final report discusses delivery and receipt processing by
            U.S. Forces Korea (USFK) of DoD cargo that is inbound to the theater.

            Customer Wait Time. The Deputy Under Secretary of Defense (Logistics and
            Materiel Readiness) established a Customer Wait Time Committee designed to
            oversee performance of the DoD supply and distribution system. Customer
            Wait Time measures delivery time for cargo from the time it is ordered until
            delivered to the end user. See Appendix B for our assessment of Customer Wait
            Time in the theater.

            Uniform Materiel Movement and Issue Priority System. The Uniform
            Materiel Movement and Issue Priority System (UMMIPS) provides a foundation
            for managing delivery and receipt of materiel through the DoD distribution
            system based on a hierarchy of priority codes that are established by the end
            user when the requisition is submitted. UMMIPS ensures that materiel is
            processed according to the mission importance of the requiring organization and
            an urgency of need. To manage items, the distribution system applies
            established time standards for delivery of cargo and processing of receipts for
            DoD organizations.

            For nonexpress air deliveries (Transportation Priority 1) of cargo to an overseas
            theater, UMMIPS allows .5 days for ports of debarkation (POD)1 processing
            and 1 day of delivery time to the consignee,2 for a total delivery time of
            1.5 days. However, for commercial express deliveries (Transportation
            Priority 1) to an overseas theater, UMMIPS does not allow any time for POD
            processing but does provide 1 day of delivery time to the consignee, for a total
            delivery time of 1 day.

            Surface deliveries (Transportation Priority 3) are generally used for cargo that is
            less time sensitive. For Transportation Priority 3 deliveries, UMMIPS allows
            3 days for processing cargo at a POD and 5 days for delivery to the consignee.



1
    A POD is an authorized point of entry into a country either by air or surface transportation.
2
    The consignee is the receiving point for a shipment designated for customers in the theater.



                                                        1
            Delivery of DoD Cargo. USFK has overall responsibility for providing
            delivery of DoD cargo within the theater by both military and commercial
            transportation. That responsibility was delegated to the 19th Theater Support
            Command. The 25th Transportation Battalion, a subordinate unit of the
            19th Theater Support Command, Eighth U.S. Army functions as the USFK
            surface transportation manager within the theater for the Component services.

            The 25th Transportation Battalion uses movement control teams (MCTs) to
            coordinate and track movement of DoD cargo by commercial transportation
            from the PODs to consignees. DD Form 1384-2, “Transportation Control
            Movement Documents,” (TCMDs) are provided to the carrier to deliver cargo
            from a terminal to another place, whether by truck or rail.

            The 25th Transportation Battalion uses transportation contracts with commercial
            carriers to deliver inbound cargo to consignees. The contracts vary based on the
            type of delivery, such as less-than truckload (LTL),3 and full loads. When using
            LTL contracts, carriers are allowed to deliver cargo to consignees within 3 days
            from pickup, unless a longer delivery time is specifically authorized. The total
            length of time for delivery, however, shall not exceed 5 days. For carriers with
            full loads, the contract requires same-day delivery. The contracts also require
            commercial carriers to present transportation documents (such as TCMDs) to
            the consignee to verify, tally, and receipt inbound freight. Upon receipt by the
            consignee, the carrier provides a copy of the documents to the consignee and
            designated MCT. To complete the transaction, the consignee signs the
            transportation documents and forwards a copy to the 837th Transportation
            Battalion. Delivery time is defined as the amount of time that elapses between
            when the POD releases the cargo until the consignee receives the cargo.

            Receipt Processing of Inbound Shipments. The Supply Support Activities
            (SSAs) are USFK organizations, designated as consignees, who usually are the
            central receiving points for deliveries of cargo to the end user. Shipments
            usually arrive at an SSA by truck and are accompanied by the appropriate
            transportation documents that contain the necessary information for properly
            accounting for the complete shipment. Only when a shipment arrives at the
            SSA with appropriate transportation documents is the delivery complete.
            Receipt processing time is the amount of time that elapses between when the
            consignee receives the cargo and when the cargo is issued to the end user.

            Military Traffic Management Command Responsibilities. The Military
            Traffic Management Command is the single agency manager for DoD traffic
            and is responsible for contracting surface deliveries of containerized cargo from
            U.S. ports of origin to overseas PODs. The 837th Transportation Battalion, a
            subordinate unit of the Military Traffic Management Command, is the port
            manager for both DoD-owned and DoD-leased containers that arrive in the
            theater. The 837th Transportation Battalion coordinates receiving and staging
            DoD cargo that arrives by surface transportation at any of the theater seaports.
            Containers arrive in the theater through the Port of Pusan, Korea, and are staged

3
    Less-than truckload is a term that the commercial trucking industry uses to identify a shipment that does
    not use the full weight or cubic carrying capacity of a truck.



                                                       2
            at the container yards of the respective carriers. The 837th Transportation
            Battalion is responsible for coordinating port activities, clearing containers
            received for customs processing, and coordinating through the
            25th Transportation Battalion MCTs for carriers to deliver the containers to the
            consignees.


Objectives
            The audit objective was to assess the effectiveness of the DoD distribution and
            transportation system to support the DoD strategic goal of reducing logistics
            response time,4 as it relates to customers located outside the continental United
            States. The specific objective for this portion of the review was to assess
            delivery and receipt of DoD cargo arriving in the theater. See Appendix A for
            discussion of the audit scope and methodology, review of management control
            program, and prior coverage.




4
    Logistics response time is the amount of time that elapses from the date a customer prepares a
    requisition until the date the customer acknowledges receipt of the requisitioned materiel.



                                                       3
                     A. Delivery of DoD Cargo from Ports of
                        Debarkation to Consignees
                     The surface delivery of DoD cargo from PODs to consignees using
                     commercial carriers was not adequately managed within the theater, and
                     UMMIPS standards were not always complied with for delivery of high
                     priority cargo from the PODs. To assess surface delivery times, we
                     conducted judgmental samples of cargo deliveries from PODs to
                     consignees. In our review, cargo delivered from Kimpo International
                     Airport, Korea,5 and Osan Air Base, Korea, usually exceeded the
                     UMMIPS 1-day delivery standard. Delivery times for shipments of
                     cargo from those aerial PODs reviewed for November and December
                     2000 and January and February 2001 averaged almost 3.8 days.6
                     Delivery times for LTL shipments of cargo from Osan Air Base
                     reviewed for November and December 2000 were not consistently
                     completed within the 3-day commercial contract requirement. Further,
                     at the Port of Pusan, Korea, commercial carriers did not always return
                     TCMDs with a consignee signature and date of receipt before returning
                     to the consignor.7
                     Those conditions occurred because:

                          •    Transportation contracts did not always include provisions for
                               timely delivery of cargo and for delivery of cargo on weekends
                               and holidays,

                          •    MCTs did not establish operating procedures that would ensure
                               contract delivery requirements matched the transportation priority
                               of the incoming cargo, and

                          •    MCTs and contracting officer representatives did not effectively
                               monitor commercial carriers for timely delivery performance and
                               proper receipt of cargo.

                     As a result, USFK had no assurance that high priority cargo
                     (Transportation Priority 1) for DoD was delivered in a timely manner
                     and was in compliance with UMMIPS standards, commercial carriers
                     were held accountable for performance of delivery contracts, and
                     mission capabilities were not hampered by the untimely delivery of the



5
    In March 2001, international air traffic, including shipments of DoD cargo, was permanently rerouted
    from Kimpo International Airport located in Seoul, Korea, to Incheon International Airport located in
    Incheon, Korea.
6
    A judgmental sample was used to assess delivery of DoD cargo from PODs to consignees. The results
    presented are limited to the sample reviewed and are not generalized to their universe.
7
    For this report, the consignor is the activity that is either the supplier or shipper of the cargo.



                                                          4
                    high priority cargo. Shipping high priority cargo by air and having the
                    cargo delivered within the theater in an untimely manner was an
                    inefficient use of DoD resources.


USFK Guidance and Responsibilities
            U.S. Forces Korea Regulation 55-355. USFK Regulation 55-355, “Korea
            Traffic Management,” June 1992, states that the Commander,
            25th Transportation Battalion is required to provide delivery control services for
            USFK, arrange for all line-haul8 common carrier service for delivery of cargo,
            and manage surface deliveries based on priority and required delivery date.
            Further, the 25th Transportation Battalion is required to use commercial
            transportation contracts, provide contracting officer representative services as
            required, and monitor contractor activities that will ensure compliance with
            regulations and contracts.

            The 25th Transportation Battalion Standard Operating Procedures. The
            25th Transportation Battalion standard operating procedures define guidelines
            for using commercial line-haul transportation to deliver cargo to consignees in
            Korea. MCT responsibilities include verifying contractor performance by
            performing quality assurance checks in accordance with the contract, using
            commercial transportation contracts, and monitoring contractor activities to
            ensure that regulation and contract requirements are met. To monitor
            commercial carrier performance, MCTs are required to receive from the
            commercial carrier documentation that confirms receipt of cargo by the
            consignee. The commercial carrier signs and dates all copies of the
            transportation documents and provides a copy of those documents to the
            consignor and consignee.

            Contracting Officer Representative Handbook. U.S. Army Contracting
            Command Korea issued the Contracting Officer Representative Handbook dated
            May 1994. The Handbook states that the contracting officer representative shall
            determine that work is performed in accordance with the terms and conditions of
            the contract. The contracting officer representative performs periodic tests and
            inspections of contractor performance to ensure that the work meets contract
            requirements. Further, the contracting officer representative establishes a
            surveillance plan to monitor contractor performance. The surveillance plan is
            required to include oversight instructions that ensure final delivery of cargo and
            performance meets contract specifications and MCTs submit required reports
            regarding contractor performance to the contracting officer.




8
    Line-haul is defined as the movement of a container between a carrier’s terminal at the port where the
    container is loaded or offloaded from a vessel and another place outside the commercial zone port city
    by means other than the carrier’s principal vessels.



                                                       5
Delivery Times
           The surface delivery of DoD cargo from PODs to consignees using commercial
           carriers was not adequately managed within the theater and UMMIPS standards
           were not always complied with for delivery of high priority cargo from the
           PODs. Based on the items we reviewed, cargo delivered from Kimpo
           International Airport and Osan Air Base usually exceeded the UMMIPS 1-day
           delivery standard. Deliveries of LTL shipments of cargo from Osan Air Base
           were not consistently completed within the 3-day commercial contract
           requirement. Documentation was not available to assess surface delivery times
           from the Port of Pusan.

           High Priority Deliveries. High priority cargo delivered from Kimpo
           International Airport and Osan Air Base to consignees was not consistently
           timely because the cargo on average was delivered in about 3.8 days which
           exceeded the UMMIPS 1-day delivery standard for high priority deliveries
           (Transportation Priority 1). At the time of the audit, commercial air cargo
           shipments to the theater normally arrived at Kimpo International Airport and
           military air cargo shipments normally arrived at Osan Air Base.

                   Kimpo International Airport. Delivery times for shipments of cargo
           from Kimpo International Airport reviewed for January 10 through February 9,
           2001, averaged 2.8 days9 versus the standard of 1 day. We judgmentally
           sampled 101 of 471 invoices from the Federal Express Corporation and 50 of
           121 invoices from DHL Worldwide Express that had cleared through customs
           for the period reviewed. The delivery times were measured from the day the
           carrier picked up the customs clearance forms from the USFK Customs
           Clearance Office at Kimpo International Airport until the consignee received the
           cargo. The delivery time ranged from .5 to 7.5 days.

                   Osan Air Base. Delivery times for LTL shipments by the MCT from
           Osan Air Base reviewed for November and December 2000 averaged 4.8 days9
           versus the standard of 1 day. We reviewed a judgmental sample of 163 surface
           shipments. The delivery times were measured from the day the carrier picked
           up cargo from the MCT at Osan Air Base until consignee received. Of the 163
           shipments, 150 were identified as high priority. The delivery time ranged from
           1 to 15 days.

           Compliance with Contract. Delivery times of LTL shipments of cargo from
           Osan Air Base to consignees were not consistently completed within the 3-day
           commercial contract requirement (Contract No. DAJB03-98-D-0041). We
           judgmentally sampled 163 surface shipments, and the results showed that
           delivery times for 106 of the LTL shipments from Osan Air Base reviewed for
           November and December 2000 were not completed within the 3-day contract



9
    A judgmental sample was used to assess delivery of DoD cargo from PODs to consignees. The results
    presented are limited to the sample reviewed and are not generalized to their universe.



                                                    6
        requirement. For the 106 deliveries that exceeded the 3-day contract
        requirement, the deliveries averaged 6.02 days.10 The delivery time ranged
        from 4 to 15 days.

        Table 1 shows daily delivery times of LTL cargo shipped from Osan Air Base.



                    Table 1. Daily Deliveries of LTL Cargo from
                              Osan Air Base, Korea




10
 A judgmental sample was used to assess delivery of DoD cargo from PODs to consignees. The results
 presented are limited to the sample reviewed and are not generalized to their universe.



                                                7
        Excluding weekends and holidays, 52 of the LTL shipments were not completed
        within the 3-day contract requirement. The delivery times averaged 5.1 days.11
        The delivery time ranged from 4 to 11 days.

        Table 2 shows daily deliveries of LTL cargo from Osan Air Base, excluding
        weekends and holidays.

                      Table 2. Daily Deliveries of LTL Cargo from
                                 Osan Air Base, Korea
                          (Excluding Weekends and Holidays)




Movement Control Documents
        At the Port of Pusan, commercial carriers did not always return to the consignor
        TCMDs with a signature of the consignee and date the consignee received the
        shipment. During November and December 2000, the 837th Transportation
        Battalion prepared 635 TCMDs for surface delivery of noncontainerized cargo
        from the Port of Pusan to consignees. The TCMDs were provided to the local
        MCT to arrange transportation with a commercial carrier. We judgmentally
        sampled 200 TCMDs. The results of the sample showed that the carriers did
        not return to the consignor 174 of the 200 TCMDs that would ensure cargo was
        delivered to the consignee. MCT officials stated that they usually did not
        receive from the carrier documentation that confirmed receipt of cargo by the
        consignor.

11
 A judgmental sample was used to assess delivery of DoD cargo from PODs to consignees. The results
 presented are limited to the sample reviewed and are not generalized to their universe.



                                                8
Transportation Contracts
    Transportation contracts did not include provisions for timely delivery of cargo
    and did not always include provisions for delivery on weekends and holidays.
    USFK has about 20 transportation contracts in place for moving bulk fuel,
    cargo, passengers, and the U.S. mail, for which 6 contracts involve movement
    of USFK cargo from the PODs. The six contracts did not always specify the
    amount of time allowed for cargo delivery or whether an allowance for
    deliveries on weekends and holidays was included. Further, only one contract
    included the 1-day delivery time specified in UMMIPS for high priority
    shipments.

    Table 3 shows the six contracts used for delivery of DoD cargo from the PODs.

           Table 3. USFK Transportation Contracts for Delivering
                        DoD Cargo to Consignees

                                    Does Contract       Does Contract      Was UMMIPS
                                     Allow for           Allow for           included in
                     Delivery       Deliveries on       Deliveries on       Statement of
      Contract No.     Time          Weekends?           Holidays?             Work?
    DAAJB-00-D-0083   3 days             No                  No                  No
    DAJB03-98-D-0041  3 days             No                 Yes                  No
    DAJB03-98-D-0042 Not Stated         Yes                 Yes                  No
    DAJB03-98-D-0059 Not Stated          No                  No                  No
    DAJB03-99-D-0061 Not Stated         Yes                 Yes                  No
    DAJB03-01-P-0484 Same day            No                  No                  No


    The 25th Transportation Battalion standard operating procedures encompass
    UMMIPS as part of its traffic management procedures. The procedures state:
            UMMIPS provides the guidelines and standards for movement
            priorities. When UMMIPS does not provide an applicable time
            standard for theater movement, assignment of transportation priority
            should be given in accordance with Military Standard Transportation
            and Movement Procedures, Volume I. (DoD Regulation 4500.32-R)

    Further, Army Regulation 725-50, “Requisitioning, Receipt, and Issue System,”
    November 1995, states that for requisitions with a high priority and a “Not
    Mission Capable Supply” requirement the receiving activity will process the
    requirements 7 days a week, 24 hours a day. USFK contracts used for delivery
    of cargo from PODs should specify the amount of time required for cargo
    delivery and whether delivery on weekends and holidays is required.




                                             9
Operating Procedures
    MCTs did not establish operating procedures to ensure that commercial contract
    delivery requirements were matched to the transportation priority of the
    incoming cargo. For example, high priority and Not Mission Capable Supply
    items should be delivered in 1 day and processed 7 days a week,
    24 hours a day; yet, the average delivery time for high priority cargo was
    2.8 days from Kimpo International Airport and 4.8 days from Osan Air Base.
    Procedures need to be established to ensure that high priority and Not Mission
    Capable Supply items at the PODs are matched to delivery contracts with
    provisions for 1-day delivery including weekends and holidays. Cargo with
    lower priorities could then be matched to delivery contracts with provisions for
    those deliveries that exceed 1 day and that may include weekends and holidays.


Monitoring of Commercial Carriers
    MCTs and contracting officer representatives did not effectively monitor
    commercial carriers for the performance of timely delivery and proper receipt of
    cargo. No system was in place for tracking commercial carriers that would
    ensure cargo was delivered timely to the consignees and receipts were properly
    executed. The contracting officer representative surveillance plans did not
    include procedures for ensuring performance and final delivery of cargo met
    the specifications in the contract. Further, we did not find any examples of the
    contracting officer representatives performing periodic tests and inspections of
    contractor performance. Procedures should be established to monitor carrier
    performance and to assess any movement control documents (for example,
    TCMDS and surface manifests) received from commercial carriers to ensure
    that consignees receive prompt and accurate delivery of cargo.


Impact of Delivery Times
    USFK had no assurance that DoD high priority cargo (Transportation
    Priority 1) was delivered in a timely manner and was in compliance with
    UMMIPS standards, commercial carriers were held accountable for
    performance of delivery contracts, and mission capabilities were not hampered
    by the untimely delivery of the high priority cargo. Shipping high priority
    cargo by air only to have the cargo delivered within the theater in an untimely
    manner was an inefficient use of DoD resources.

    USFK needs to take action to improve its procedures for surface transportation
    to ensure that consignees receive prompt and accurate delivery of cargo. USFK
    should first determine standards for which the surface delivery of cargo from the
    PODs must meet. Those standards could be the UMMIPS requirements or the
    USFK supplemental standards to the UMMIPS that are more applicable to
    theater requirements. The standards should address, at a minimum, timeliness


                                       10
    of cargo to be delivered using the transportation priorities including deliveries
    on weekends and holidays. USFK should also determine use and retention
    procedures applicable to the theater for documentation that will provide
    evidence of delivery times and accuracy of the delivered cargo.

    USFK also needs to prepare or amend commercial carrier contracts that contain
    delivery provisions associated with the established standards. For example, at
    least one contract could have a provision for 1-day delivery and weekend and
    holiday delivery, while at least one contract could have a provision for more
    than 1-day delivery and may include weekend and holidays deliveries. Those
    contracts should clearly state the penalty for failing to meet the provision for
    delivery times.

    Once those steps are complete, USFK needs to establish procedures that will
    ensure the priority of the cargo delivered from a POD is matched with a
    commercial carrier contract that ensures delivery within the established
    standards. Finally, USFK needs to establish procedures to monitor commercial
    carrier performance and to reconcile movement control documents received
    from commercial carriers to ensure consignees receive prompt and accurate
    delivery of cargo.


Recommendations, Management Comments, and Audit
  Response
    A. We recommend that the Commander, U.S. Forces Korea:

           1. Establish guidance for delivery of cargo from ports of
    debarkation within the theater using Uniform Materiel Movement and Issue
    Priority System standards or U.S. Forces Korea supplemental standards to
    the Uniform Materiel Movement and Issue Priority System criteria more
    applicable to theater requirements.

    Management Comments. USFK concurred with the recommendation, stating
    that it will revise USFK Regulation 55-355 to add the requirement that high
    priority cargo be delivered from the ports of debarkation in accordance with
    standards prescribed by UMMIPS.

           2. Establish procedures for using and maintaining documentation
    that provides evidence of delivery times and the accuracy of the delivered
    cargo.

    Management Comments. USFK concurred with recommendation, stating that
    the revised USFK Regulation 55-355 will incorporate procedures requiring that
    organizations providing transportation services shall use and maintain
    documentation that provides evidence of both delivery times and accuracy of the
    delivered cargo.




                                        11
       3. Prepare or amend commercial carrier contracts that contain
delivery provisions for weekend and holiday deliveries, and penalties for
nonperformance compliance with the standards established by the
provisions of Recommendation A.1.

Management Comments. USFK concurred with the recommendation stating
that it will incorporate in the revised USFK Regulation 55-355 the requirement
that organizations providing transportation services develop and maintain the
capability to deliver high priority cargo on weekends and holidays.

4. Establish procedures to ensure that the priority of the cargo to be
delivered from a port of debarkation is matched with a commercial carrier
contract that has the necessary provisions that will ensure delivery within
the standards established by Recommendation A.1.
Management Comments. USFK concurred with the recommendation, stating
that it has reviewed all of its transportation contracts and requested that the U.S.
Army Contracting Command Korea modify contracts that did not state specific
delivery times.

       5. Establish procedures, metrics, and surveillance plans that will
monitor and ensure carrier performance of contract specifications and
reconcile movement control documents received from commercial carriers
to ensure consignees received prompt and accurate delivery of all cargo.

        Management Comments. USFK concurred with the recommendation,
stating that contracting officer representatives prepare monthly a contractor
performance rating on contractor services. Also, contractors are required in the
statement of work to submit within 1 week from time of delivery a copy of the
TCMD to the originating MCT. If the contractor does not comply, the
contracting officer representative reports a deficiency on the contractor
performance rating and forwards the rating to U.S. Army Contracting
Command Korea if deficiencies are noted.




                                     12
           B. Receipt Processing of DoD Cargo
           The five SSAs reviewed did not adequately maintain truck manifests used
           for the processing of receipts for delivered cargo or signed pickup sheets
           used to show when cargo was issued to the end user. Further, the end
           user did not always pick up cargo timely from the SSAs. The lack of
           documentation occurred because SSAs believed that it was not necessary
           to maintain supporting documentation for inbound cargo. Also, the
           SSAs did not have a system in place to coordinate picking up cargo with
           the end user. As a result, SSAs had no assurance that cargo delivered
           was properly accounted for, the date the end user received the cargo, or
           whether the end user received the cargo.


USFK Criteria
    Army Regulation 25-400-2. Army Regulation 25-400-2, “The Modern Army
    Recordkeeping System,” October 1, 2001, states that information relating to
    inbound and outbound shipments, including bills of lading, freight bills, and
    express receipts, should be disposed of after 3 years.

    U.S. Forces Korea Regulation 55-355. USFK Regulation 55-355 states that
    SSAs must inspect, account for, and offload shipments that arrive at the
    receiving activity. Also, the SSAs are required to receipt for incoming cargo
    using shipping documents to count the shipment and signing the documents to
    confirm receipt. Upon recording that inbound cargo has been received, the
    SSAs are required to either have cargo available for the end user to pick up,
    place in stock, or excess. End users are expected to come to the SSA daily and
    to check the storage bins for cargo that is available for pickup and then sign
    pickup sheets to acknowledge receipt for that cargo. Receiving activities shall
    maintain files for the processing of receipts. That documentation shall include,
    at a minimum, the carrier’s name, contract number, vehicle identification, date
    and time the vehicle arrived, and the dates that the loading and offloading of the
    vehicle began and were completed.


Audit Universe and Sample Selection.
    The Defense Automatic Addressing System Center manages the Logistics
    Metrics Analysis Reporting System. The Logistics Metrics Analysis Reporting
    System is the official Customer Wait Time tracking system for DoD. The
    Defense Automatic Addressing System Center tracks materiel as it progresses
    through the logistics system and records associated response times. The SSA
    enters receipt information the carrier obtains and provides from the documents
    upon delivery of cargo in a local system. Once entered, the data are
    automatically processed and cargo receipt is noted in the Logistics Metrics
    Analysis Reporting System.



                                        13
        Audit Universe and Sample Selection. We used the Defense Automatic
        Addressing System Center database from June and July 2000 to identify an audit
        universe of 6,750 Class IX items (repairables and consumables) for 5 of the
        SSAs located in the theater. We used a stratified random sample to select 480
        requisitions at those 5 SSAs. The SSA, unit name, and sample size were as
        follows:

             SSA in Korea                                  Unit                                Size

        Camp Casey                         D Company, 702nd
                                            Maintenance Support Battalion                      180
        Camp Eagle                         G Company, 52nd Aviation                             40
        Camp Humphreys                     520th Maintenance Company                            70
        Kunsan Air Force Base              8th Supply Squadron                                 150
        Suwon Air Force Base               3rd Maintenance Company                              40
          Total                                                                                480


Truck Manifests
        Truck manifests12 used for the processing of receipts of inbound cargo at the
        SSAs were not adequately maintained. From our sample, we projected at the
        95 percent confidence level that the cargo arrival date could be identified for
        only 528 (7.8 percent) of the 6,750 shipments. The lower and upper limit of
        our estimate is 371 and 684, respectively. The SSAs either did not maintain the
        truck manifests or could not match up to any truck manifest the cargo that
        arrived. Further, examples were found in the samples that the SSAs recorded
        receipt of cargo for a 1-day processing, even though the cargo had arrived up to
        3 days before it was processed. In addition, SSA personnel informed us that
        they did not always reconcile inbound cargo to the truck manifest. SSA
        personnel also informed us that cargo received was accounted for after the
        commercial carrier departed the SSAs premises.


End-user Pickup Sheets
        Signed end-user pickup sheets that showed when cargo was issued to the end
        user were not maintained. From our sample, we projected at the 95 percent
        confidence level that 915 (13.6 percent) of the 6,750 pickup sheets were either
        not maintained or the documentation was not readable. The lower and upper
        limit of our estimate is 711 and 1,119, respectively.




12
 Truck manifests are documents that organizations use to account for the receipt of incoming trucks
 delivering cargo. A truck manifest may be used in place of a TCMD.



                                                  14
SSAs Maintaining Receipt Documents
    The SSAs believed no requirement existed that made it necessary to maintain
    supporting documentation (truck manifests and pickup sheets) for inbound
    cargo, even though Army regulations require that information for inbound and
    outbound shipments be kept for at least 3 years. Receiving personnel did not
    believe retaining truck manifests for recordkeeping was necessary because the
    personnel annotated the Julian date (which represented cargo arrival date and
    date processed) on a requisition form (DD Form 1348-1A, “Issue
    Release/Receipt Document) that the carrier provided when the cargo was
    delivered. However, we found examples where the cargo arrival date was not
    always the same as the processed date. Further, we observed cargo that had
    arrived on a previous day that had not been processed when received. As a
    result, the SSAs had no assurance that cargo that was delivered was accurate
    and properly accounted for once the cargo was offloaded.


Timely Processing
    End users did not always pick up their cargo timely from the SSAs. From our
    sample, we projected at the 95 percent confidence level that in 1,250 instances,
    the end users took more than 2 days after the cargo was made available to pick
    up that cargo from the SSAs. The lower and upper limit of the estimate is
    1,029 and 1,472, respectively. Those pickups were not timely because the
    shipments included cargo that was high priority and sent by air to the aerial
    PODs. End user pickup times for the 1,250 items ranged from 2 days to
    38 days. Cargo pickup was not timely because the SSAs did not have a system
    in place to coordinate cargo pickup with the end user. The SSAs expected that
    end users would check storage bins daily. The SSAs did not contact or notify
    end users that high priority cargo had arrived and was available for pickup.


Conclusion
    The SSAs had no assurance that delivered cargo was properly accounted for, the
    date an end user received the cargo, or whether the end user received the cargo
    at all. However, the problems identified have broader implications. The local
    systems in the theater were set up to acknowledge receipt of materiel on the date
    received at the SSA receiving activity rather than the date the end user
    acknowledged receipt. The Standard Army Retail Supply System (Army) and
    Standard Base Supply System (Air Force) recorded receipt of materiel on the
    date the receipts were processed. At the SSAs, the date for the receipt of cargo
    was not reported to the Defense Automatic Addressing System Center upon
    issue to the end user, but rather the receipt date at the SSAs. That process
    inaccurately closed out the receipt date of cargo before the date the end user
    picked up the cargo, thereby providing incorrect data used in determining
    Customer Wait Time.


                                       15
Recommendations, Management Comments, and Audit
  Response
    B. We recommend that the Commander, U.S. Forces Korea revise
    U.S. Forces Korea Regulation 55-355 to require:

          1. Supply Support Activities to maintain dated and signed truck
    manifests and pickup sheets to confirm receipt.

    Management Comments. USFK concurred with the recommendation and
    stated that proper implementation of the regulation would improve
    documentation of delivery and accountability of the SSAs. Further, SSAs are
    now using an automated system for receipt processing, which performs receipt
    acknowledgement.

           2. Supply Support Activities immediately contact end users for
    pickup of high priority cargo within the same day the cargo is made
    available for end user.

    Management Comments. USFK concurred with the recommendation and
    stated USFK Regulation 55-355 is being revised to require SSAs to immediately
    contact end users within the same day the cargo is made available for pickup of
    high priority cargo.




                                       16
Appendix A. Audit Process

Scope and Methodology
    Work Performed. We reviewed the DoD, USFK, and Military Traffic
    Management Command regulations concerning policies, responsibilities, and
    procedures for delivery and receipt of DoD cargo inbound to the theater. We
    reviewed six USFK contracts used for delivering cargo from the PODs. We
    performed audit work at aerial and sea PODs, the 25th Transportation Battalion,
    Seoul, Korea; the 837th Transportation Battalion, Pusan, Korea; and at five
    SSAs throughout the theater. Our effort, for this segment of the overall audit,
    concentrated on delivery and receipt of cargo received at the Kimpo
    International Airport, Osan Air Base, and the Port of Pusan and delivered to
    consignees. We examined the 25th Transportation Battalion records to assess
    contracting officer representatives and MCTs responsibilities and the
    837th Transportation Battalion records for delivery of noncontainerized cargo to
    consignees. Further, we used a random sample of delivery records at the SSAs
    to assess adequacy of receipt processing. Our sample covered cargo for which
    the SSA processed and signed receipts for the 60-day period that ended
    July 31, 2000.

    High-Risk Area. The General Accounting Office has identified several
    high-risk areas in DoD. This report provides coverage of the Defense Inventory
    Management high-risk area.

    Use of Computer-Processed Data. We relied on computer-processed data
    from the Logistics Metrics Analysis Reporting System to identify the number of
    cargo that were receipted at the SSAs.

    Accuracy of Data and Effect on Audit. We did not assess the accuracy of
    data obtained from the Logistics Metrics Analysis Reporting System. We used
    the data to identify the scope of Class XI items requisitioned by five SSAs for
    the 60-day period reviewed.

    Use of Technical Assistance. Statisticians from the Analysis, Planning, and
    Technical Support Directorate, Quantitative Methods Division, Office of the
    Assistant Inspector General for Auditing, DoD, provided assistance in designing
    a random statistical sampling plan for evaluating and projecting the results of the
    receipt processing at the SSAs.

    Audit Type, Dates, and Standards. We performed this economy and
    efficiency audit from July 2001 through March 2002 in accordance with
    generally accepted government auditing standards. We included tests of
    management controls considered necessary.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available on request.



                                        17
Management Control Program Review
      DoD Directive 5010.38, “Management Control Program,” August 26, 1996,
      and DoD Instruction 5010.40, “Management Control Program Procedures,”
      August 28, 1996, require DoD organizations to implement a comprehensive
      system of management controls that provides reasonable assurance that
      programs are operating as intended and to evaluate the adequacy of the controls.

      Scope of the Review of the Management Control Program. We reviewed the
      adequacy of management controls for delivery and receipt processing of DoD
      cargo arriving in the theater.

      Adequacy of Management Controls. We identified material management
      control weaknesses for the delivery and receipt processing of cargo at USFK as
      defined by DoD Directive 5010.40. The USFK management controls for
      delivery and receipt processing of DoD cargo were not adequate because
      delivery of DoD cargo from PODs to consignees using commercial carriers did
      not consistently provide timely delivery of high priority cargo (finding A).
      Further, USFK management controls for maintaining truck manifests and signed
      end user pickup sheets were not adequate to show when the cargo was received
      at the SSA and picked up by the end user (finding B). A copy of the report will
      be provided to senior officials responsible for management controls within the
      Army.

      Adequacy of Management’s Self-Evaluation. USFK did not identify delivery
      of cargo arriving from PODs nor the processing of receipts for DoD cargo as
      assessable units and, therefore, did not identify or report the material
      management control weaknesses identified by the audit. However, the Eighth
      U.S. Army, Korea did identify delivery of cargo arriving in the theater and the
      processing of receipts for DoD cargo at the SSAs as assessable units.

Prior Coverage
      During the last 5 years, the Inspector General, DoD, has issued two reports that
      discuss transportation issues in the Republic of Korea. The Army Audit Agency
      has also issued one report that discusses end user wait time. Unrestricted
      Inspector General, DoD, reports can be accessed over the Internet at
      http://www.dodig.osd.mil/audit/reports.



Inspector General

      Inspector General, DoD, Report No. D-2002-004, “Import Processing of DoD
      Cargo Arriving In the Republic of Korea,” October 4, 2001

      Inspector General, DoD, Report No. D-2001-149, “Coordinating and Tracking
      of Commercial Containers in Korea,” June 22, 2001


                                         18
Army

       Army Audit Agency, Report No. AA 01-394, “Customer Wait Time,
       2nd Infantry Division, Eighth U.S. Army, Korea,” August 10, 2001




                                       19
Appendix B. Customer Wait Time
   The Deputy Under Secretary of Defense (Logistics and Materiel Readiness)
   established a DoD Customer Wait Time Committee (the Committee) that would
   oversee the performance measurement of the DoD supply and distribution
   system. In December 2000, the Committee changed Logistics Response Time
   to Customer Wait Time. Whereas Logistics Response Time measured elapsed
   time from customer requisition to receipt of materiel ordered from the DoD
   wholesale system, Customer Wait Time measures the total elapsed time between
   when a requisition is issued and when an order is delivered to the end user. In
   addition, Customer Wait Time not only measures the segments of Logistics
   Response Time (wholesale), but also measures purchases from contractors and
   local retailers.

   From our evaluation of the measurements for Customer Wait Time, we believe
   that the processing time for receipt of cargo in the theater is not accurately
   measured. Army and Air Force systems (the Standard Army Retail Supply
   System [Army] and Standard Base Supply System [Air Force]) the SSAs use in
   the theater to acknowledge cargo receipt to the Defense Automatic Addressing
   System Center were not capable of disclosing the actual pick up times of the end
   user. The two systems are set up to acknowledge receipt of the cargo at the
   SSAs rather than when the end user picks it up. The procedures that the two
   systems used to close out the receipt of cargo before the end user arrived at the
   SSA to pick up the cargo closed out the receipt of cargo before the customer
   arrived. As mentioned in finding B, customers normally took more than 2 days
   to pick up their cargo. Further, because the SSAs were not retaining truck
   manifests, we found several instances of cargo arriving as many as 3 days
   before the SSA initiated processing. We also believe the receipt processing of
   1 day that the SSAs in the theater reported to Defense Automatic Addressing
   System Center is distorted and that using existing procedures may distort
   potential measurement of Customer Wait Time as envisioned. We believe the
   DoD receipt procedures that measure Customer Wait Time need to be assessed.
   The Committee review of DoD receipt procedures is warranted at this time.




                                      20
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Acquisition, Technology, and Logistics

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Unified Commands
Commander in Chief, U.S. Pacific Command
Commander in Chief, U.S. Forces Korea
U.S. Transportation Command
Military Traffic Management Command

Non-Defense Federal Organizations
Office of Management and Budget




                                          21
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
Senate Subcommittee on Surface Transportation and Merchant Marines, Committee on
  Commerce, Science, Transportation
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform
House Subcommittee on Coast Guard and Maritime Transportation, Committee on
   Transportation and Infrastructure
House Subcommittee on Highways and Transit, Committee on Transportation and
   Infrastructure
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform




                                       22
Department of the Army Comments




                    23
US Forces Korea Comments




               24
     Revised




     Revised


     Revised




25
26
27
28
Audit Team Members
The Readiness and Logistics Support Directorate, Office of the Assistant Inspector
General for Auditing, DoD, prepared this report. Personnel of the Office of the
Inspector General, DoD, who contributed to the report are listed below.

Shelton R. Young
Kimberly A. Caprio
Dennis E. Payne
Keith A. Yancey
Celia J. Harrigan
Scott S. Cygan
Lusk Penn
Sharon L. Carvalho




                                          29
